                                            NATIONAL SCIENCE FOUNDATION
                                             OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS




       OIG received a complaint that a student1 in a Research Experiences for Undergaduates
summer program funded by an NSF award2to an institution3had not received certain payments and
reimbursements due the student.

        In the course of acquiring and reviewing financial records to determine whether any of the
allegedly unpaid amounts had nonetheless been charged to the NSF award (theyhad not4),OIG noted
that the principal investigator5received salary reimbursements for one summer period in excess of
NSF's two-ninths rule, and that the institution used an indirect cost methodology that differed from
that prescribed in the program announcement under which the award had been made.6

        The institution, which had not obtained prior permission from NSF for extra summer salary,
provided a justification to NSF and received approval after the fact from the program ~ f f i c e r The
                                                                                                    .~
institution modified its accounting practices for indirect costs to conform to the requirements of the
program announcement, and made appropriate adjustments to past charges for indirect costs in its
accounting records.

        The institution also satisfactorily explained other minor issues in the financial records.

        Accordingly, this case is closed.
